                Peace Corps
                Office of Inspector General




Peace Corps/Moldova Office in Chisinau               Flag of Moldova




                           Final Audit Report:
                          Peace Corps/Moldova
                               IG-10-11-A




                    Acting Assistant Inspector General for Audit



                                                           August 2010
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an audit of PC/Moldova April 13 –
April 29, 2010. Our overall objective in auditing overseas posts is to determine whether the
financial and administrative operations were functioning effectively and complied with
Peace Corps policies and federal regulations during the period under audit. Appendix A
provides a full description of our audit objective, scope, and methodology.

We determined that, in general, Peace Corps/Moldova’s financial and administrative
operations were functioning effectively and complied with agency policies and federal
regulations. We also found that post had established the necessary separation of duties over
financial responsibilities, implemented a communication system that provided cost savings
by routing office calls through a cell phone number, maintained complete files for personal
services contractors, and proactively reviewed its own internal control through the
Administrative Management Control Survey.

However, there were several areas in need of improvement. The more important findings
are summarized below.

Receipt of Collections
The cashier did not provide copies of paid general receipts to the payee and ensure they
were fully aware of the need to keep the receipt as proof of payment.

Imprest Fund
Recent reviews indicate that the imprest fund level should be reduced by approximately
$25,000.

Foreign Service Nationals Files
The post had not requested that the regional security officer validate the security
certification of one foreign service national (FSN) and did not maintain a copy of the most
recent recertification for the other FSN. Further, the Peace Corps Manual (PCM) sections
403, 602, and 691 do not discuss the need for recertification even though it is required by the
U.S. Department of State Foreign Affairs Manual (FAM).

Personally Identifiable Information
The medical unit used Volunteers’ Social Security Numbers (SSNs) on medical file folders
and maintained the folders in a file cabinet that was not bar-locked.

Our report contains 12 recommendations, which if implemented should strengthen internal
controls and correct the deficiencies detailed in the accompanying report. Management
concurred with all 12 recommendations and began implementing corrective actions. As a
result, we closed 6 recommendations and await documentation supporting corrective actions
for the remaining 6 recommendations. See Appendices B and C for management’s response
and OIG comments.


Final Audit Report: Peace Corps/Moldova                                                        i
                                                   Table of Contents

EXECUTIVE SUMMARY ............................................................................................................... i

INTRODUCTION.......................................................................................................................... 1

AUDIT RESULTS ........................................................................................................................ 1

A.   RECEIPT OF COLLECTIONS……..….….…….………..…….…………….………………….…….3
B.   IMPREST FUND…………………..……….………………..….……….….………………….……4
C.   FOREIGN SERVICE NATIONALS' FILES……..…………….…..…..……..…………………………5
D.   MEDICAL SUPPLIES……….………..….………….….…….……….………………….…………6
E.   PROPERTY MANAGEMENT………….……….…………..….………….………..…….….….…...7
F.   VOLUNTEER PERSONAL PROPERTY….……….…………….…..….……….……….….….….….8
G.   PERSONALLY IDENTIFIABLE INFORMATION ….…………….…..….……….……….….….….….9
H.   PERSONAL SERVICES CONTRACTS ….……….…………….….….……….……….….….….….10

QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .................................................. 11

POST STAFFING ....................................................................................................................... 12

LIST OF RECOMMENDATIONS .................................................................................................. 13

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT’S RESPONSE

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                      INTRODUCTION
OIG conducted an audit of PC/Moldova April 13 – April 29, 2010. We conducted our
last audit of the post from August – September 2003 (IG-03-08-AE).

In 1993, the government of Moldova invited Volunteers to come to Moldova. The
government representatives believed that well-developed English language skills would
help Moldovans participate in the international community and global economy by
helping them gain access to a wealth of information, resources, and markets. Current
English education Volunteers also incorporate environmental issues into the curriculum.
Recently, PC/Moldova added projects in organizational development, as well as
agriculture and agrobusiness to assist the Moldovan government in addressing the
country's economic and social development needs. Volunteers work in 97 towns and
villages throughout the country. Since the program's inception, more than 400
Volunteers have served in Moldova.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with federal
regulations and Peace Corps policies during the period under audit. Appendix A provides
a full description of our audit objective, scope, and methodology.



                                     AUDIT RESULTS
We determined that, in general, PC/Moldova’s financial and administrative operations
were functioning effectively and complied with agency policies and federal regulations.
We also found that post had established the necessary separation of duties over financial
responsibilities, implemented a telephone system that provide cost savings by routing
office calls through a cell phone number, and proactively reviewed its own internal
control through the Administrative Management Control Survey. However, we identified
the following areas in need of improvement:

    A. The cashier did not post a copy of the general receipt outside the cashier cage.
       The cashier also did not return receipts of paid advances to the payee to ensure the
       payee has verification of payment and to help prevent the potential embezzlement
       of collections. Further, the cashier did not use the official interim advance form,
       instead post used a form it developed but it lacked key information regarding
       personal accountability of funds and the need to receive a voided receipt after
       completion. During the site visit, the administrative officer issued an updated
       form with all the required information.

    B. A recent review of the imprest fund level revealed that the post’s imprest fund
       should be lowered by $25,000.



Final Audit Report: Peace Corps/Moldova                                                   1
    C. The post had not requested that the regional security officer validate the security
       certification that expired in October 2009 for one of the two foreign service
       nationals and had not obtained the most current recertification for the second
       foreign service national at post. In addition, the PCM sections 403, 602, and 691
       do not discuss the need for recertification although it is required by the FAM.

    D. The country director and the medical unit had not established an adequate process
       to update non-controlled medical supply inventory levels as supplies were
       received, dispensed, and disposed.

    E. The general services officer did not have an adequate process to ensure the
       property records were up-to-date and the post had not established policies on what
       items were considered pilferable and non-expendable.

    F. The post did not have a process to properly safeguard Volunteer personal property
       kept at the post.

    G. The medical unit used Volunteers’ SSNs on medical file folders and maintained
       the folders in a file cabinet that was not bar-locked.

    H. The post had not obtained the additional procurement authority necessary to
       execute an option year for a personal services contractor that exceeded the
       country director’s authority as a result of currency fluctuations.

Our findings are presented in the original slide presentation format provided to the post
and regional management during the exit conferences with minor updates and edit
changes.




Final Audit Report: Peace Corps/Moldova                                                      2
                        A. Receipt of Collections
           Findings                                     Criteria                                    Effect
1. The cashier did not post a copy     Overseas Financial Management Handbook           Posting a copy of the general
of the general receipt outside the     (OFMH) section 7.3 states, “The Cashier          receipt and providing a copy of
cashier cage.                          must post a copy of the FORPost General          paid general receipts to payees
                                       R
                                       Receipt
                                            i outside
                                                   id the
                                                       h cashier
                                                              hi window
                                                                    i d    so           h l ensure that
                                                                                        helps           h payees obtain
                                                                                                                   b i
                                       debtors know what the form looks like.”          verification of payments and
                                                                                        increases the control of
2. The cashier did not return the      OFMH section 13.18.2 states, “The cashier        collections to prevent the
general receipts marked paid to        will then mark the interim receipt "Void" and    potential embezzlement of funds.
staff returning interim advances
                        advances.      return it to the person who received the
                                       advance.”


3. The post did not use the official   OFMH section 13.18 , states, “Each cash          By not using the official Interim
Interim Advance form, instead the      advance must be approved in writing by an        Advance form, the post could not
postt used
         d a fform it created.
                          t d          authorized
                                          th i d approving i official,
                                                              ffi i l and
                                                                        d an iinterim
                                                                                t i     ensure staff were fully informed
                                       advance receipt, SF-1165, kept by the            of their personally accountable
                                       principal cashier. ”                             for the funds received and the
During the site visit, the                                                              need to receive a voided receipt
administrative officer issued an                                                        after completion.
updated form with all the required
i f
information
       ti and  d posted
                      t d a copy off
the general receipt outside of the
cashier cage.

                                               Recommendation
We Recommend:

A.1. That the cashier provide payees with a copy of the general receipt marked paid and instruct them to keep the copy
for their records.
                                                                                                                            3
                                    B. Imprest Fund
               Finding                                Criteria                                 Effect
The post had not lowered the imprest       PCM section 760.20.0 states,        The post is able to reduce the imprest
funds to the minimum amount needed.        “The country director must          fund level because it uses alternative
The imprest fund level was $40,000.        promptly discontinue or reduce      methods of payment that provide
                                           the
                                            h ffund
                                                  d when
                                                     h iit iis no llonger      additional
                                                                                 ddi i  l controls,
                                                                                                l suchh as electronic
                                                                                                             l      i
In April 2010, a Department of State       needed, or when fund activity is    fund transfers and purchase cards.
cashier monitor analyzed the imprest       reduced…”
level and determined the amount                                                By lowering the amount of imprest
necessary to be $15,000. The                                                   funds at post by $25,000 the post can
administrative officer conducted an                                            reduce the risk of theft or other fraud.
analysis of the imprest fund level using
FORPost with similar results.

However, with pre-service training in
June, the post will need the increased
imprest fund level to support trainees.

                                             Recommendation
We Recommend:

B.1. That the post reduce the imprest level to the recommended amount immediately following the current fiscal year’s
pre-service training.




                                                                                                                          4
        C. Foreign Service Nationals’ Files
                  Findings                                       Criteria                              Effect
1. The post had not requested that the regional        FAM Volume 3, section 7222.1-5      Security certifications are
security officer validate the security certification   states, “Recertification is         necessary to ensure the safety
that expired in October 2009 for one of the two        required when:                      and security of Volunteers, staff,
FSN and
FSNs      dhhadd not obtained
                       b i d the
                               h most current          —The
                                                         Th certification
                                                                  ifi i off a FSN          and
                                                                                             d property.
recertification for the second FSN at post.            employee, TCN employee, or
                                                       contractor has                      Post should obtain validation of
2. PCM sections 403.6.7.4, 602.12.2.1, and             not been revalidated within the     security certifications from the
691.3.6.1 require investigations and pre-              past five years; or                 regional security officer to ensure
employment security certification for FSNs in          —A contractor
                                                            contractor’s
                                                                       s services have     its staff have cleared the required
accordance with the FAM. However, the PCM              not been used for a period of one   investigations.
sections do not discuss the need for                   year.”
recertification.

                                                 Recommendations
We Recommend:

C.1. That the administrative officer obtain a copy of the most recent validation of the foreign service nationals’ security
certifications from the regional security officer.

C.2. That the Office of Management revise the Peace Corps Manual sections 403, 602, and 691 to require validation of
foreign service nationals’ security certifications every five years in accordance with the Foreign Affairs Manual.




                                                                                                                                 5
                               D. Medical Supplies
            Finding                                  Criteria                                    Effect
The post did not have an adequate       Currently, PCM section 734 only         Without a process to track medical
process to update non-controlled        requires “an accurate and complete      supplies in real-time, the inventory was
medical supply inventory levels as      set of inventory records for all        not always accurate and was not useful in
supplies
    li were received,
                   i d di
                        dispensed,
                                 d      medical
                                            di l supplyl iitems that
                                                                 h are          d
                                                                                determining
                                                                                       i i requiredi d stockk llevels,
                                                                                                                   l kknowing
                                                                                                                          i
and disposed.                           specially designated or controlled      when to order supplies, and identifying
                                        substances.” It defines specially       upcoming expiration dates to minimize
The medical unit maintained             designated medical supplies as          disposals.
records of all receiving, dispensing,   items that the Office of Medical
and disposing of medical supplies;      Services deems to be high value
                                                                     value,     A judgmental sample of the inventory
but did not use the documentation       pilferable, or otherwise deserving of   record revealed that:
to update the inventory in real time.   special attention.
Instead, the medical unit updated                                                • One of the 12 controlled substances
the inventory during the physical       On March 2, 2010 the Office of
                                        Medical Services defined specially
                                                                  p      y       had an incorrect expiration date listed in
verifications
verifications.                                                                   the log.
                                        designated medical supplies as all
                                        prescription medications.
In response to the audit, the post                                               • Four of the 10 sampled non-controlled
began tracking all prescription                                                  substances were not accurately
medications using the process                                                    recorded in the inventory. The medical
defined in PCM section 734
                        734.                                                     staff provided records showing supplies
                                                                                 were dispensed that accounted for the
                                                                                 differences.

                                               Recommendation
We Recommend:

D.1. That the country director, in conjunction with the medical unit, develop a process to update the medical inventory in
a timely manner for use in identifying procurement needs and reducing disposals.
                                                                                                                                6
                      E. Property Management
              Finding                                     Criteria                                     Effect
The general services officer did not       PCM section 511.7.1 states, “The               Accurate and complete property
have an adequate process to update         Property Record Card is used to                records are necessary to reduce the
property records.                          maintain property data on individual           risk of theft or other loss.
                                           i
                                           items. IIt serves as a centrall lilisting
                                                                                 i ffor
During the site visit, the post held an    property description, procurement              A review of 20 judgmentally sampled
auction, which contributed to the          records, assignment data, and                  non-expendable property times
inaccuracies on the inventory as items     disposal information.”                         identified the following
were moved and sold. Another                                                              discrepancies:
contributing factor to the inaccuracies    Although the Peace Corps does not
                                           have an agency-wide property                      • Four items were not located.
was that the post did not establish its                                                      • Three items were not in the
own policies, about which items were       management system, the concept of
                                           maintaining individual records for                listed location.
considered pilferable and non-
expendable.                                property and updating the records                 • Two items had old property tags
                                           regularly
                                             g     y is necessary
                                                                y to p
                                                                     provide                 that could not be read.
                                           timely and accurate information
                                           related to Peace Corps property.

                                              Recommendations
We Recommend:

E.1. That the country director establish policy clarifying pilferable and non-expendable property items.

E.2. That the property officer update and maintain a complete property database once the post policy is established.

E.3. That the property officer conduct an inventory and update the property records since the auction.


                                                                                                                                 7
              F. Volunteer Personal Property
                   Finding                                        Criteria                              Effect
Post did not have a process to properly               PCM section 235.3.5 states,            Safeguarding personal
safeguard Volunteer personal property.                “Peace Corps employees and             property is essential to prevent
Volunteers kept belongings in secured lockers         contractors are not permitted to       theft and loss Volunteer
i the
in h VVolunteer
         l       llounge, b
                          but lleft
                                 f bbags, a guitar,
                                              i       take
                                                        k custodyd off VVolunteer/
                                                                          l      / Trainee
                                                                                   T i       b l
                                                                                             belongings.
                                                                                                    i
and other items outside of the lockers because        property without the country
they would not fit.                                   director's written approval. Absent    Further, establishing a process
                                                      the country director's approval,       for accepting and securing
                                                      such employees and contractors         Volunteer property limits the
                                                      may be personally liable for the       potential cost to Peace Corps
                                                      loss of any V/T property for which     and its staff for reimbursement
                                                      they assumed custody.”                 of items lost, damaged, or
                                                                                             stolen while in Peace Corps
                                                                                             custody.




During the audit, the administrative officer
posted a notice in the lounge stating that
V l t
Volunteer were responsible
                         ibl for
                             f their
                                 th i own
property.

                                                  Recommendation
We Recommend:

F.1. That the country director establish a process for accepting and securing Volunteer property that does not fit in the
lockers or requires additional safeguarding.

                                                                                                                                8
    G. Personally Identifiable Information
               Finding                                   Criteria                                 Effect
The Volunteer folders in the medical unit   The Privacy Act of 1974 requires         Peace Corps’ Performance and
files contained the Volunteers’ SSNs. The   agencies to only obtain information      Accountability Report continues to
folders were in a key locked file cabinet   on individuals necessary to              cite safeguarding personally
within
   i hi the
         h medical
              di l office.
                     ffi                    accomplish
                                                    li h the
                                                          h mission
                                                              i i and  d to          id ifi bl iinformation
                                                                                     identifiable f     i as a
                                            establish necessary safeguards of        management challenge.
The Peace Corps medical contractor          records with personal information.
explained that the Office of Medical                                                 Because of the sensitivity of
Services sends the SSNs on stickers for     PCM section 267.2.1.2 states that,       personally identifiable information,
the Volunteer files and requires the        “Medical
                                             Medical records are medically           post should take all necessary
numbers be on any medical results sent to   confidential and are to be stored in a   precaution to minimize the potential
them. The Office of Medical Services        file secured with a manipulation-        for loss, theft, or abuse of
responded to the issue concerning the use   proof combination lock.”                 personally identifiable information.
of SSNs on medical records in report IG-
10-07-A.

                                            Recommendations
We Recommend:

G 1 That the medical unit remove Volunteers’ Social Security Numbers from the file folders
G.1.                                                                               folders.

G.2. That the medical unit store Volunteer medical records in a safe or bar-locked cabinet in accordance with Peace
Corps Manual section 267.




                                                                                                                            9
             H. Personal Services Contractor
                 Finding                                                Criteria                                          Effect
A contract for a personal service                    PCM section 114 attachment B provides                    Executing contracts
contractor was for an amount that                    country directors with the authority to                  exceeding contract authority
exceeded the country director’s                      contract up to $100,000 for procurements in              results in noncompliance
d l
delegated
        d authority.
               h i                                   their
                                                      h i country off assignment.*
                                                                         i        *                           with
                                                                                                                ihPPeace C Corps policies
                                                                                                                                    li i
                                                                                                              and the Federal Acquisition
Post received authority from the Office of           PCM section 743.6.2 states, “If the price of             Regulation. Further, if the
Acquisitions and Contract Management                 the total amount of the base plus all option             request for additional
for $81,634 in March 2007 to execute the             periods exceeds the country director's                   contract authority is not
contract for a Peace Corps medical                   delegated procurement authority
                                                                               authority, a                   approved the post
                                                                                                              approved,
contractor. In December 2009, post                   delegation of additional procurement                     contracting staff may be held
executed option year three, but currency             authority is required from the [Head of the              personally liable.
fluctuation resulted in the total contract           Contracting Activity] prior to awarding the
value of $101,672.                                   contract.”                                               Because the delegations
                                                                                                              specified the amount
                                                                                                                            amount, any
                                                     The country director’s contract authority was            amount above the
To avoid this issue, the Office of                   $50,000 during the time of the original
Acquisitions and Contract Management                                                                          delegation would require
                                                     contract for the Peace Corps Medical                     additional authority.
now includes a statement discussing                  Contractor.
potential increases when granting
additional procurement authority.
                         authority

                                                       Recommendation
We Recommend:

H.1. That the country director request additional contract authority from the Office of Acquisitions and Contract
Management for the Peace Corps medical contractor’s contract.

*Although the Peace Corps Director provides procurement authority to country directors, PCM section 743 requires the chief acquisitions officer
to provide any additional procurement authority. This discrepancy was addressed in report IG-10-06-A.                                             10
    I.




                        QUESTIONED COSTS AND
                     FUNDS TO BE PUT TO BETTER USE

We did not identify any questioned costs or funds to be put to better use during the course
of the audit.




Final Audit Report: Peace Corps/Moldova                                                 11
                                      POST STAFFING
At the time of our visit, the post had 36 staff positions: three U.S. direct hire employees,
two foreign service nationals, and 31 personal services contractor positions. We
interviewed staff members, including the three U.S. direct hire employees and the two
FSNs. The staff was cooperative and provided the necessary documentation.

Volunteers expressed their appreciation for the post management team, the program and
training staffs, and the Peace Corps medical contractors for their availability and their
demonstrated interest in the Volunteers’ well-being and success. Volunteers also told us
that they had received effective ongoing support from the administrative unit.

                                Peace Corps/Moldova Positions
                                   Position                            Status
           Administrative Officer                                  USDH
           Country Director                                        USDH
           Program and Training Officer                            USDH
           Cashier                                                 FSN
           Information Resource Coordinator                        FSN
           Budget and Finance Assistant                            PSC
           Cleaner (2)                                             PSC
           Community Integration Coordinator                       PSC
           Driver (4)                                              PSC
           Financial Assistant                                     PSC
           General Services Assistant                              PSC
           General Services Manager                                PSC
           Information Technology Specialist                       PSC
           Language and Cultural Assistant                         PSC
           Medical Administrative Assistant                        PSC
           Peace Corps Medical Contractor                          PSC
           Program Manager/Agriculture and Agrobusiness            PSC
           Program Manager/Community and Organizational
           Development                                             PSC
           Program Manager/Health Education                        PSC
           Program Manager/TEFL                                    PSC
           Program Specialist/Community and Organizational
           Development                                             PSC
           Program Assistant/Health Education                      PSC
           Program Assistant/TEFL                                  PSC
           Property Maintenance Specialist/Driver                  PSC
           Pre-service Training Administrative Assistant           PSC
           Safety and Security Coordinator                         PSC
           Security Guard (4)                                      PSC
           Training Manager                                        PSC



Final Audit Report: Peace Corps/Moldova                                                    12
                          LIST OF RECOMMENDATIONS

We recommend:

A.1. That the cashier provide payees with a copy of the general receipt marked paid and
instruct them to keep the copy for their records.

B.1. That the post reduce the imprest level to the recommended amount immediately
following the current fiscal year’s pre-service training.

C.1. That the administrative officer obtain a copy of the most recent recertification of the
FSNs’ security clearances from the regional security officer.

C.2. That the Office of Management revise the PCM sections 403, 602, and 691 to
require recertification of FSNs’ security clearances every five years in accordance with
the FAM.

D.1. That the country director, in conjunction with the medical unit, develop a process to
update the medical inventory in a timely manner for use in identifying procurement needs
and reducing disposals.

E.1. That the country director establish policy clarifying pilferable and non-expendable
property items.

E.2. That the property officer update and maintain a complete property database once the
post policy is established.

E.3. That the property officer conduct an inventory and update the property records since
the auction.

F.1. That the country director establish a process for accepting and securing Volunteer
property that does not fit in the lockers or requires additional safeguarding.

G.1. That the medical unit remove Volunteers’ SSNs from the file folders.

G.2. That the medical unit store Volunteer medical records in a safe or bar-locked
cabinet in accordance with PCM section 267.

H.1. That the country director request additional contract authority from the Office of
Acquisitions and Contract Management for the Peace Corps medical contractor’s
contract.




Final Audit Report: Peace Corps/Moldova                                                    13
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

The audit of PC/Moldova covered fiscal years 2009 and 2010 through April 29, 2010.
While at the post, we interviewed key staff and Volunteers to obtain their views on the
effectiveness of the post’s administrative and financial systems. At the end of our audit,
we briefed the country director and administrative officer. At Peace Corps headquarters,
we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the PCM,
the Overseas Financial Management Handbook, the U.S. Department of State’s Foreign
Affairs Manual, as well as current Peace Corps initiatives and policies.
APPENDIX B


             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM
To:            Kathy Buller, Inspector General
From:          Helen Lowman, Regional Director of Europe, Mediterranean & Asia
Date:          July 21, 2010
CC:            Elisa Montoya, Acting Chief Compliance Officer; Stacy Rhodes, Chief of Staff; Nicola A. P.
               Cullen Policy and Program Analyst; Ed Hobson, Associate Director for Safety and Security;
               Earl Yates, Associate Director for Management
Subject:       Response to the Preliminary Report of the Office of Inspector General Financial and
               Administrative Audit of Peace Corps/Moldova


Enclosed please find the Region’s response to the recommendations made by the Inspector General for
Peace Corps/Moldova, as outlined in the Preliminary Report of the IG Audit.

The Region concurs with all recommendations.

The Europe, Mediterranean and Asia (EMA) Region concurs with all twelve recommendations provided by
the OIG in its Preliminary Audit Report: Peace Corps/Moldova (June 2010).

The EMA Region is encouraged with the OIG’s findings that PC/Moldova’s financial and administrative
operations were functioning effectively and complied with agency policies and federal regulations. OIG also
found that post had established the necessary separation of duties over financial responsibilities,
implemented a telephone system that provide cost savings by routing office calls through a cell phone
number, and proactively reviewed its own internal control through the Administrative Management Control
Survey.

The Region and PC/Moldova understand that there is still work to be done, and post staff members
welcome the insights and information offered by the OIG Audit Report.
Response to the April 2010 Preliminary Report of the Office of Inspector General Financial Audit of
Peace Corps/Moldova

A.1: That the cashier provides payees with a copy of the general receipt marked paid and instruct
them to keep the copy for their records.
       Concur: The cashier is currently providing payees with a copy of the general receipt with the
       instructions to keep a copy for their records and will continue to do so. Post now understand the
       requirement to mark those general receipts as ‘paid’ and have enclosed copies of general receipts to
       indicate compliance.
       Documents Included: Examples of copies of receipts with the proper stamp.
       Status and Timeline for Completion: completed and continuous

B.1: That the post reduce the Imprest level to the recommended amount immediately following the
current fiscal year’s pre-service training.
       Concur: In April 2010, Department of State cashier monitor Conrad de Lima analyzed the Imprest
       level and determined the amount necessary to be $20,000. This was his finding in his final report and
       action items contained therein. Post is complying with this recommendation and will do so at the
       end of post’s PST cycle. Post agrees with the need to limit the amount of cash on hand, but will
       request that the Imprest fund amount be increased up to $40,000 for the next Pre-Service Training
       cycle to accommodate cash needs at that time.
       Documents included: Final Report from Conrad de Lima; E-mail from Mr. de Lima confirming
       and clarifying the $20,000 Imprest amount.
       Status and timeline for Completion: September 1, 2010

C.1: That the administrative officer obtain a copy of the most recent recertification of the FSNs’
security clearances from the regional security officer.
       Concur: The FSN has completed the recertification of the safety clearance. In addition, the Budget
       Analyst at post has included all PSCs in the tracking of proper security clearance recertification
       schedules to ensure there is no lag time and that all clearances are up to date.
       Documents included: Copy of FSN recertification; Spreadsheet request by Office of Safety and
       Security outlining security recertification schedules for all PSCs.
       Status and timeline for Completion: Completed


C.2: That the Office of Management revise the PCM sections 403, 602, and 691 to require
recertification of FSNs’ security clearances every five years in accordance with the FAM.
       Concur: The Office of Management and the Office of Safety and Security are working with the
       Office of the General Counsel to revise manual sections 403, 602, and 691 to require recertification
       of FSNs’ employment security certifications every five years in accordance with 3 FAM 7222 and 12
       FAM 422.4.



                                                     2
       Documents included: Updated PC/Moldova staff handbook to include information regarding
       security recertification schedules.
       Status and timeline for Completion: Completed at post

D.1: That the country director, in conjunction with the medical unit, develops a process to update
the medical inventory in a timely manner for use in identifying procurement needs and reducing
disposals.
       Concur: As recommended by the IG, Post’s IT Specialist (ITS) has been working with
       PC/Paraguay to adopt the medical inventory reporting practices of that post. The new database will
       allow for more efficient management of medical supplies and inventory.
       Documents included
       Status and timeline for Completion: July 30, 2010

E.1: That the country director establish policy clarifying pilferable and non-expendable property
items.
       Concur: Post has developed a policy of pilferable and non-expendable property items that has now
       been incorporated into the staff handbook. Additionally, items on the list of pilferable non-
       expendable property that are not in use by a current staff member will be stored in a locked location.
       Documents included: Post property inventory policy
       Status and timeline for Completion: July 30, 2010

E.2: That the property officer update and maintain a complete property database once the post
policy is established.
       Concur: Once a new policy has been established, the GSO in collaboration with the ITS and
       Administrative team will update the electronic database, and do a physical count of the property
       belonging to PC/Moldova
       Documents included:
       Status and timeline for Completion: August 30, 2010

E.3: That the property officer conduct an inventory and update the property records since the
auction.
       Concur: The GSO will complete an update on the property since the auction, when the database
       has been completed and the new property policy, which requires an annual inventory update, is in
       place.
       Documents included:
       Status and timeline for Completion: August 30, 2010




                                                     3
F.1: That the country director establish a process for accepting and securing Volunteer property
that does not fit in the lockers or requires additional safeguarding.
       Concur: Post understands the need to limit liability when it comes to being responsible for
       Volunteer’s personal property left at the office. Post does realize, however, that occasional storage
       for no more than 24 hours is necessary for Volunteers who are ET-ing, COS-ing, or have
       obligations in the capital that require them to spend the night. As such, post has updated the
       Volunteer Handbook to include new language on Volunteer personal property being accepted at the
       office. In addition, it was determined that post should create additional secure storage space to
       permit Volunteers to temporarily store their belongings.
       Documents included: Updated page 10 of Volunteer handbook with language relating to
       PC/Moldova’s Volunteer personal storage policy; Drawing, cost, and timeline for the creation of
       storage space for Volunteer belongings; Photos of property policy notice as displayed in the
       PC/Moldova office.
       Status and timeline for Completion: August 15, 2010

G.1: That the medical unit remove Volunteers’ SSNs from the file folders.
       Concur: Medical files currently arrive from PC/Washington with both Volunteer names and SSNs
       on the labels. Post will obliterate the SSN and only use the Volunteer name on the file folders.
       Documents included: Photos of folders with blacked-out SSN; E-mail from IG Inspector Bradley
       Grubb indicating that blacking out the names was an acceptable measure to ensure closure of the
       recommendation.
       Status and timeline for Completion: Completed and ongoing

G.2: That the medical unit store Volunteer medical records in a safe or bar-locked cabinet in
accordance with PCM section 267.
       Concur: Post recognizes and agrees that Volunteer medical records should be stored in a bar-locked
       cabined in accordance with the Peace Corps’ Manual. A locking bar has been installed to secure the
       filing cabinet in which Volunteer medical records are housed.
       Documents included: Photos of the new bar lock after installation.
       Status and timeline for Completion: July 30, 2010

H.1: That the country director request additional contract authority from the Office of Acquisitions
and Contract Management for the Peace Corps medical contractor’s contract.
       Concur: When the contracts for Dr. Oprea and Ms. Potoraca were submitted in December 2009,
       OACM did indeed request a Delegation of Procurement Authority (DOPA). Post provided the
       DOPAs they had on file for the two contracts from 2007 and 2006. At that time, both contracts
       were under $100,000. Due to currency fluctuations and the Agency-requested change of salaries
       from dollars into local currency at a favorable rate in late 2008, both of these contracts are now over
       $100,000. As post submitted the 2006, 2007 DOPAs to OACM at the time of contract renewal with
       no response from OACM, post believed they were in compliance with agency regulations. Post has
       submitted Statements of Work, contract documents, and scanned copies of the 2006/2007


                                                      4
Delegation of Additional Procurement Authority to OACM and signed and submitted a ratification
to obtain the necessary updated DOPA for both contractors.
Documents included: Delegations of Additional Procurement Authority ratification documents (2)
Status and timeline for Completion: July 15, 2010




                                           5
APPENDIX C


                              OIG COMMENTS

Management concurred with all 12 recommendations made in our preliminary report.
We closed 6 recommendations based on the Agency’s response and supporting
documentation. We request additional documentation to close recommendations B.1, C.2,
D.1, E.1, E.2, and E.3. These recommendations remain open pending confirmation from
the chief compliance officer that the following has been received:

   •   For recommendation B.1: A copy of the cable reducing the imprest fund level to
       $20,000.

   •   For recommendation C.2: A copy of the updated Peace Corps manual or policy
       memorandum discussing the need for validation of FSN employment security
       certifications every five years.

   •   For recommendation D.1: A copy of the documentation depicting the new process
       for recording and updating the medical inventory on a timely basis. We
       acknowledge that the post is demonstrating good communication and information
       sharing by working with PC/Paraguay to learn from their process and implement
       best practices. We encourage posts and regions to continue to discuss practices
       that may benefit other locations.

   •   For recommendation E.1, E.2, and E.3: A copy of the post’s updated property
       inventory policy and the current annual inventory.
APPENDIX D

            AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Senior auditor Bradley Grubb performed the audit.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please email Steven Kaffen, Acting Assistant Inspector General for Audits,
at skaffen@peacecorps.gov, or call him at 202.692.2905.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
